HHS/OIG, Audit -"Review of Hospital Medicare Secondard Payer Issues,"(A-04-01-07002)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Hospital Medicare Secondary Payer Issues," (A-04-01-07002)
September 16, 2002
Complete
Text of Report is available in PDF format (1.64 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Orange Park Medical Center (the hospital) complied with Medicare
Secondary Payer (MSP) regulations regarding both inpatient and outpatient settings during its fiscal year ended June 30,
2000.  We found that, for 64 percent of the claims reviewed, the hospital could not provide sufficient documentation
to demonstrate compliance with Medicare guidelines and its policies and procedures regarding the completion and adequacy
of MSP questionnaires.  This condition could lead to Medicare absorbing a share of the costs applicable to other payers
and to credit balances being generated and requiring unnecessary administrative expenses to resolve.  In this respect,
a review of 25 credit balances showed that in 7 instances Medicare was billed in the wrong order.  In reviewing these
credit balances, we also found that the hospital did not always refund Medicare credit balances in a timely fashion.